Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    MEDICAID DRUG PRICE 

       COMPARISONS: 

AVERAGE MANUFACTURER PRICE 

    TO PUBLISHED PRICES





                    Daniel R. Levinson

                    Inspector General 


                       June 2005 

                     OEI-05-05-00240

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
  Δ         E X E C U T I V E                                             S U M M A R Y                                              



                                   OBJECTIVE
                                   To examine the differences between the published prices States use to
                                   set Medicaid reimbursement rates (i.e., average wholesale price and
                                   wholesale acquisition cost) and a statutorily defined price calculated
                                   from actual sales transactions (i.e., average manufacturer price) for
                                   drugs reimbursed by Medicaid.


                                   BACKGROUND
                                   Medicaid expenditures for prescription drugs continue to be a major
                                   concern to the Administration, Congress, and States; and Medicaid drug
                                   reimbursement changes are being considered. Most prescription drugs
                                   reimbursed by Medicaid are dispensed by pharmacies. The Office of
                                   Inspector General (OIG) has found evidence that Medicaid drug
                                   reimbursements exceed pharmacies’ actual acquisition costs.

                                   In general, States reimburse pharmacies for drugs at the lower of
                                   estimated acquisition cost (EAC) plus a dispensing fee or the
                                   pharmacy’s usual and customary charge to the public. The EAC is the
                                   State’s best estimate of the price generally and currently paid by
                                   providers for the drug.

                                   States often lack access to drug pricing data based on actual sales and
                                   instead estimate pharmacy acquisition costs using published prices,
                                   namely, average wholesale price (AWP) and wholesale acquisition cost
                                   (WAC). Neither AWP nor WAC are necessarily based on actual sales
                                   transactions. The AWP is not defined in statute or regulations, and
                                   until recently, the same was true for WAC. OIG has recommended that
                                   Medicaid should base reimbursement on pricing data that more
                                   accurately reflects actual acquisition costs.

                                   The Average manufacturer price (AMP) is the average price paid by
                                   wholesalers for drugs distributed to the retail class of trade, net of
                                   customary prompt pay discounts. The AMP is statutorily defined and
                                   its calculation is based on actual sales transactions. Drug
                                   manufacturers must report AMP data for all Medicaid-covered drugs to
                                   the Centers for Medicare & Medicaid Services (CMS) quarterly as a
                                   requirement of the Medicaid drug rebate program. Most State Medicaid
                                   agencies do not have access to AMP data, which is proprietary.

                                   To explore the potential impact of moving to a sales-based price to
                                   estimate pharmacy acquisition cost, this inspection compares AMP to


OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   i
    E X E C U T I V E                                    S U           M M A R Y


                                   AWP and WAC for national drug codes (NDC) reimbursed by Medicaid.
                                   We compared AMP to AWP for 24,101 NDCs and AMP to WAC for
                                   19,475 of those NDCs (4,626 NDCs had an AWP but no WAC value).
                                   We compared the per unit prices in place on January 1, 2005. We
                                   calculated median comparisons for all of the NDCs, as well as for each
                                   drug category: single source (“single source brands”), innovator
                                   multisource (“multisource brands”), and non-innovator multisource
                                   (“generics”). This analysis focuses on the comparison of a sales-based
                                   price to the published prices associated with the drug itself (i.e., the
                                   “ingredient cost”) and does not address the professional costs associated
                                   with dispensing the drug or the dispensing fees.

                                   A companion report, “Medicaid Drug Price Comparison: Average Sales
                                   Price to Average Wholesale Price” (OEI-03-05-00200), examines the
                                   differences between average sales price (a statutorily defined price
                                   based on actual sales and used for Medicare Part B drug
                                   reimbursement) and AWP. That analysis includes approximately
                                   2,100 NDCs that are covered by both Medicaid and Medicare Part B.


                                   FINDINGS
                                   Average manufacturer price is substantially lower than both average
                                   wholesale price and wholesale acquisition cost. At the median, AMP
                                   is 59 percent lower than AWP. Forty-nine States use AWP to estimate
                                   pharmacy acquisition costs. The median State EAC formula is AWP
                                   minus 12 percent. For 98 percent of Medicaid-reimbursed NDCs, this
                                   median State EAC formula would reimburse at a price higher than
                                   AMP.

                                   At the median, AMP is 25 percent lower than WAC. Among the eight
                                   States that use WAC in their EAC, the median State EAC formula is
                                   WAC plus 8.5 percent. For 96 percent of NDCs, this median EAC would
                                   reimburse at a price higher than AMP.
                                   Generic drugs exhibit the largest differences between average
                                   manufacturer price and the published prices. For generic drugs,
                                   AMP is 70 percent lower than AWP at the median. In comparison, AMP
                                   is 23 percent lower than AWP at the median for single source brands
                                   and 28 percent lower for multisource brands.

                                   State estimates of pharmacy acquisition cost exceed AMP even among
                                   States with additional discounts for generics. Seven States use EAC
                                   formulas that specify a greater discount off AWP for generic drugs than
                                   brand name drugs. However, these formulas range from AWP minus

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   ii
    E X E C U T I V E                                    S U           M M A R Y


                                   20 percent to AWP minus 50 percent, resulting in estimates of
                                   pharmacy acquisition cost that are higher than the median AMP for
                                   generics, which is equal to AWP minus 70 percent.

                                   For generic drugs, AMP is 40 percent lower than WAC at the median.
                                   In comparison, AMP is 4 percent lower than WAC for single source
                                   brands and 8 percent lower than WAC for multisource brands at the
                                   median.

                                   No States use a WAC-based EAC formula with additional discounts
                                   taken for generics. State EAC formulas that use WAC range from WAC
                                   plus 5 percent to WAC plus 12 percent. The median AMP is lower than
                                   these formulas in all drug categories, but the largest difference is for
                                   generics where AMP is 40 percent lower than WAC.


                                   CONCLUSION
                                   The Administration and Congress have expressed interest in aligning
                                   Medicaid drug reimbursement more closely with pharmacy acquisition
                                   cost by using prices based on actual sales rather than published prices.
                                   OIG has also recommended that Medicaid should base reimbursement
                                   on pricing data that more accurately reflects actual acquisition costs.

                                   This inspection provides additional evidence that published prices used
                                   as a basis for reimbursement are higher than prices based on actual
                                   sales. AMP, which is calculated based on statute and actual sales
                                   transactions, is substantially lower than either of the published prices
                                   (i.e., AWP and WAC). As a result, States’ estimates of pharmacy
                                   acquisition costs, which are based on AWP and/or WAC, are also
                                   substantially higher than AMP. These differences are greatest for
                                   generic drugs.

                                   Comparing a statutorily defined, sales-based price to published prices
                                   provides valuable information to those considering the implications of
                                   changing Medicaid’s drug reimbursement methodology. The substantial
                                   disparities between AMP and the published prices currently being used
                                   indicate that changing the basis of Medicaid reimbursement could have
                                   a significant impact on Medicaid expenditures.
                                   Agency Comments
                                   CMS commented that these companion reports make clear that current
                                   Medicaid payment rules result in overpayments for drugs and
                                   emphasize the need for reform. CMS stated that Congress should enact
                                   legislation similar to the reform of Medicare Part B (i.e., switch to ASP

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   iii
                                   as the basis of reimbursement) to ensure that Medicaid payment for
                                   drugs is related to actual prices paid by pharmacies.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   iv
Δ   T A B L E           O F             C O N T E N T S                                  




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         INTRODUCTION ................................................ 1




         FINDINGS ....................................................... 9

                    AMP is substantially lower than AWP and WAC . . . . . . . . . . . . . . 9 


                    Generic drugs exhibit the greatest percent differences . . . . . . . . . 11 





         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                    A. Key Terms and Acronyms, Distribution Chart. . . . . . . . . . . . . 20 


                    B. Additional Data Populations: Medicaid-covered Drugs . . . . . 22 


                    C. Additional Measures: Ranges and Interquartile Ranges . . . . 23 


                    D. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

  Δ         I N T R O D U C T I O N                                                             



                                   OBJECTIVE
                                   To examine the differences between the published prices States use to
                                   set Medicaid reimbursement rates (i.e., average wholesale price and
                                   wholesale acquisition cost) and a statutorily defined price based on
                                   actual sales transactions (i.e., average manufacturer price) for drugs
                                   reimbursed by Medicaid.


                                   BACKGROUND
                                   All State Medicaid programs include outpatient prescription drug
                                   coverage, an optional benefit. Nationally, Medicaid spent over
                                   $34 billion on prescription drugs in 2003.1 Over 41 million beneficiaries
                                   were enrolled in Medicaid in 2003.2
                                   Approximately 6 million of these beneficiaries are dually eligible for
                                   Medicaid and Medicare (dual eligibles).3 Currently, Medicaid provides
                                   drug coverage for these dual eligibles, but in 2006, coverage for these
                                   beneficiaries will be transferred from Medicaid to Medicare.4
                                   Concerns about Medicaid Drug Reimbursement
                                   Medicaid expenditures for prescription drugs continue to be a major
                                   concern to the Administration, Congress, and States. The President’s
                                   2006 budget proposes restructuring Medicaid pharmacy reimbursement
                                   to save an estimated $542 million in fiscal year (FY) 2006 and
                                   $15.1 billion over 10 years.5 The House Energy and Commerce
                                   Subcommittee on Oversight and Investigations held a hearing in
                                   December 2004 on “Medicaid Prescription Drug Reimbursement: Why
                                   the Government Pays Too Much” and explored potential reforms.6
                                   Congress has established a Medicaid commission to provide
                                   recommendations to achieve $10 billion in overall Medicaid savings over
                                   the next 5 years and to consider longer-term performance goals and
                                   recommendations.7 The National Governors Association and National
                                   Conference of State Legislatures are also working on proposals to
                                   reduce Medicaid spending, including spending on prescription drugs.8
                                   The Office of Inspector General (OIG) has found evidence that because
                                   States lack accurate drug pricing data, Medicaid drug reimbursements
                                   exceed pharmacies’ actual acquisition costs. OIG has also found that
                                   Medicaid drug reimbursements exceed the prices paid by other Federal
                                   programs. OIG has recommended that Medicaid should base
                                   reimbursement on pricing data that more accurately reflects actual
                                   acquisition costs.9

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   1
    I N T R O D 
U C T                              I O N


                                   Medicaid Drug Reimbursement
                                   Drug Cost Reimbursement.
                                   Most prescription drugs reimbursed by Medicaid are dispensed by
                                   pharmacies. Within Federal parameters intended to ensure that
                                   Medicaid acts as a prudent buyer, each State determines its own
                                   pharmacy reimbursement formula(s).10 In general, States reimburse
                                   pharmacies for drug costs at the lower of estimated acquisition cost
                                   (EAC) plus a dispensing fee or the pharmacy’s usual and customary
                                   charge to the public. Some multiple source drugs (i.e., drugs with
                                   equivalent generic versions) have a Federal upper limit (FUL) or a State
                                   maximum allowable cost (MAC).

                                   The EAC is the State Medicaid agency’s “best estimate” of the price
                                   generally and currently paid by providers for the drug.11 The Centers
                                   for Medicare & Medicaid Services (CMS) does not prescribe a method for
                                   calculating EAC; instead, each State establishes and specifies its own
                                   EAC formula in its Medicaid State plan.

                                   Estimating pharmacy acquisition cost presents a challenge for States
                                   because States lack access to drug pricing information calculated from
                                   actual drug sales. Instead, States rely on the published prices available
                                   in drug pricing compendia, despite the previously identified flaws of
                                   these published prices.

                                   Forty-nine States (including the District of Columbia) use average
                                   wholesale price (AWP) minus a discount percentage in their EAC
                                   formulas. Eight States use wholesale acquisition cost (WAC) plus a
                                   markup percentage in their EAC formulas. Six of these eight States use
                                   both AWP and WAC, e.g., “the lesser of AWP minus 12 percent or WAC
                                   plus 8 percent.” Some States use more complex EAC formulas. For
                                   example, seven States specify different formulas for brand name drugs
                                   versus generic drugs. Other States vary their formulas based on the
                                   pharmacy’s characteristics (e.g., chain versus non-chain pharmacies).

                                   For certain multiple source drugs that meet specified criteria, CMS sets
                                   specific Federal upper limit amounts based on the published prices. The
                                   FUL amount equals 150 percent of the lowest published price of any
                                   therapeutically equivalent version of the drug published in the national
                                   pricing compendia.12 Additionally, some States establish MAC
                                   reimbursement levels at a rate below an established FUL or for drugs
                                   for which CMS has not set an FUL amount. Thirty-nine States had
                                   MAC programs as of January 1, 2005.13



OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   2
    I N T R O D 
U C T                              I O N


                                   Dispensing Fees.
                                   In addition to reimbursing pharmacies for the cost of the drug (also
                                   known as the ingredient cost), States are required to determine
                                   “reasonable” dispensing fees.14 This fee represents the charge for the
                                   professional services provided by a pharmacist when dispensing a
                                   prescription. States’ dispensing fees to retail pharmacies range from
                                   $2.00 to $12.50.15
                                   Drug Pricing Data
                                   Currently, three types of drug pricing data are readily available and 

                                   relevant to the Medicaid program: AWP, WAC, and AMP. A fourth 

                                   price, average sales price (ASP), is used by the Medicare program to

                                   calculate reimbursement amounts for the subset of drugs that are 

                                   covered by Medicare Part B. See Appendix A for a list of key drug 

                                   pricing terms and acronyms and a chart depicting an example of a 

                                   Medicaid drug distribution chain. 

                                   Published prices: AWP and WAC.
                                   Average wholesale price and wholesale acquisition cost are prices that
                                   are published in commercial drug pricing compendia by private
                                   companies, such as First Databank and Medi-Span, based on pricing
                                   information reported by manufacturers.16 Neither AWP nor WAC are
                                   necessarily based on actual sales transactions. The AWP is not defined
                                   in statute or regulations, and until recently, the same was true for
                                   WAC. The AWP is often considered a price for wholesalers to charge
                                   retailers. As currently defined in statute, WAC is:

                                               . . . the manufacturer’s list price for the drug or biological to
                                               wholesalers or direct purchasers in the United States, not
                                               including prompt pay or other discounts, rebates or reductions in
                                               price, for the most recent month for which the information is
                                               available, as reported in wholesale price guides or other
                                               publications of drug or biological pricing data.17
                                   As mentioned earlier, State Medicaid agencies generally use AWP
                                   and/or WAC to estimate pharmacy acquisition costs for drug
                                   reimbursement. However, studies, investigations, and audits by OIG,
                                   the Department of Justice, and others have found that these published
                                   prices, particularly AWP, substantially overstate the actual prices
                                   pharmacies pay for drugs.

                                   Recognizing the flaws of AWP, the Medicare Prescription Drug,
                                   Improvement, and Modernization Act of 2003, Public Law 108-173,
                                   changed the basis of Medicare Part B drug reimbursement from AWP to

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   3
    I N T R O D 
U C T                              I O N


                                   ASP, a statutorily defined price calculated from actual sales 

                                   transactions. The Administration has proposed similar reforms for

                                   Medicaid.18

                                   Prices based on actual sales: AMP and ASP.
                                   Average manufacturer price is the average price paid to the
                                   manufacturer by wholesalers for drugs distributed to the retail
                                   pharmacy class of trade minus customary prompt pay discounts. Its
                                   calculation is statutorily defined and based on actual sales
                                   transactions.19 Because AMP is calculated from sales that have already
                                   occurred, it is a retrospective price.

                                   Drug manufacturers are required to report AMP data for all Medicaid-
                                   covered drugs to CMS quarterly as a requirement of the Medicaid drug
                                   rebate program.20 State Medicaid agencies do not currently have access
                                   to AMP data, which is proprietary.

                                   While AMP is statutorily defined, there are some weaknesses associated
                                   with it. CMS has not issued final regulations regarding AMP
                                   calculation. The Government Accountability Office (GAO) recently
                                   released a report on the Medicaid rebate program that found inadequate
                                   oversight of manufacturers’ AMP calculations and variation across
                                   manufacturers in how AMP was calculated.21
                                   Average sales price is also statutorily defined and is based on actual
                                   sales transactions. It is defined as the manufacturer’s unit sales to all
                                   purchasers (with certain exceptions) in a calendar quarter divided by
                                   the total number of units sold by the manufacturer during that same
                                   quarter, net any price concessions (such as volume, prompt pay, and
                                   cash discounts), free goods contingent on purchase requirements,
                                   chargebacks, and rebates (other than Medicaid rebates).22 The ASP
                                   must be calculated and reported to CMS quarterly for drugs covered by
                                   Medicare Part B. Most drugs reimbursed by Medicaid are not covered
                                   by Medicare Part B and do not have an ASP value reported to CMS.
                                   Companion Report: Average Sales Price to Average Wholesale Price
                                   OIG is issuing a companion report entitled, “Medicaid Drug Price
                                   Comparison: Average Sales Price to Average Wholesale Price”
                                   (OEI-03-05-00200), concurrent with this report. This companion report
                                   shares a similar objective, i.e., to compare statutorily defined drug
                                   prices based on actual sales to published prices. The primary difference
                                   is scope. The companion report analyzes drugs that are covered by both
                                   Medicaid and Medicare Part B (approximately 2,100 national drug
                                   codes [NDC]) and focuses on comparing ASP to AWP. In contrast, this

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   4
    I N T R O D                 U C T               I O N


                                   report includes Medicaid-reimbursed drugs (approximately
                                   24,000 NDCs) and compares AMP to the published prices (AWP and
                                   WAC). The AMP is the only statutorily defined, sales-based price
                                   reported to CMS for all drugs in the Medicaid program.


                                   METHODOLOGY
                                   National Drug Codes Reviewed
                                   We focused our analysis on pricing data for Medicaid-reimbursed drugs,
                                   i.e., the population of NDCs reimbursed by Medicaid during the first
                                   two quarters of calendar year 2004 (January 1 through June 30, 2004),
                                   the most recent reimbursement data available. This population
                                   includes all drugs with an AMP value and at least one other price (AWP
                                   and/or WAC) in place on January 1, 2005. We used the 11-digit NDCs
                                   that Medicaid uses to identify unique formulations of each drug,
                                   including the manufacturer, strength, and package size. This
                                   population includes 25,560 NDCs.

                                   In addition, we analyzed pricing data for Medicaid-covered drugs with
                                   an AMP value and at least one other price (AWP and/or WAC) in place
                                   January 1, 2005. This population includes additional drugs that
                                   Medicaid covers but that had no reimbursement from January 1
                                   through June 30, 2004. This analysis is presented in Appendix B and
                                   includes 28,557 NDCs.
                                   Excluded NDCs.
                                   From our total population of Medicaid-reimbursed NDCs, we excluded
                                   3 percent of NDCs at both ends of the distribution of AMP to AWP
                                   ratios. As explained below, this provides a conservative estimate of the
                                   differences between these prices. Our population for analysis of
                                   Medicaid-reimbursed drugs includes 24,101 NDCs for the AMP to AWP
                                   comparisons. Only 19,475 of these NDCs had WAC values and are
                                   therefore included in the AMP to WAC comparisons.

                                   At the low end, we excluded all NDCs for which the AWP values were
                                   less than the AMP values. Approximately 3 percent of Medicaid-
                                   reimbursed NDCs had AWP values below AMP. In principle, it seems
                                   unlikely for AWP to be below AMP because AWP is used to represent a
                                   transaction further down the distribution chain than AMP (see
                                   Appendix A for an example of the distribution chain). The AMP is an
                                   average of actual sales from manufacturers to wholesalers. The AWP is
                                   a published price that is generally used to represent a price for
                                   wholesalers to charge retailers. While there are known incentives for a

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   5
    I N T R O D 
U C T                              I O N


                                   manufacturer to increase an AWP relative to actual sales prices, there
                                   are no similar known incentives for a manufacturer to decrease an AWP
                                   below actual sales prices. It is likely that where AWP is lower than
                                   AMP, it is the result of a technical error such as a unit definition
                                   inconsistency, a data timing issue, or a reporting error.

                                   We also excluded the NDCs at the high end where AWP values exceeded
                                   AMP by the greatest percentages. Unlike the NDCs where AWP is less
                                   than AMP, there is no apparent reason to assume that an extremely
                                   high AWP (relative to AMP) is incorrect and therefore the result of a
                                   unit definition inconsistency, a data timing issue, or a reporting error.
                                   However, it is plausible that errors occur with the same frequency at
                                   the high end of the distribution as at the low end. Therefore, we used a
                                   3 percent threshold to parallel the exclusion of 3 percent of NDCs at the
                                   low end. We did this by drug category; i.e., single source (“single source
                                   brands”), innovator multisource (“multisource brands”), and non-
                                   innovator multisource (“generics”); because the distribution of AMP to
                                   AWP ratios differed substantially by category. CMS designates each
                                   NDC as single source, innovator multisource, or non-innovator
                                   multisource in the Medicaid Drug Rebate Initiative files.

                                   As a result, our calculations may underestimate the extent to which 

                                   AWP exceeds AMP by excluding these NDCs at the high end.

                                   Data Sources
                                   AMP.
                                   We used the AMP per unit values that were reported by manufacturers
                                   to CMS and were in place on January 1, 2005. We obtained this data
                                   from the Medicaid Drug Rebate Initiative files that CMS uses to
                                   administer the Medicaid drug rebate program. The AMP values that
                                   are in place on January 1, 2005, are based on sales from July 1 through
                                   September 30, 2004, which are reported to CMS by manufacturers by
                                   October 30, 2004.
                                   AWP and WAC.
                                   We used the AWP per unit and the WAC per unit values that were in
                                   effect on January 1, 2005, as publisheded in First Databank’s National
                                   Drug Data File. First Databank is the source from which State
                                   Medicaid agencies typically obtain AWP and WAC data for pharmacy
                                   reimbursement.23




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   6
    I N T R O D 
U C T                              I O N


                                   State EAC Formulas.
                                   We obtained the State EAC formulas that were in effect on January 1,
                                   2005, from the CMS Web site. CMS compiles this information from
                                   approved State plans.
                                   Medicaid Reimbursement Data.
                                   Overall, we used the Medicaid reimbursement data available on the
                                   CMS Web site from the State Drug Utilization Files. At the time of our
                                   analysis, this data had been last updated in February 2005. The most
                                   recent national data included reimbursement by NDC for the first two
                                   quarters of calendar year 2004 (i.e., January 1 through June 30, 2004).
                                   We used this data to define our population of Medicaid-reimbursed
                                   drugs, to calculate weighted averages, and to identify the top 200 drugs
                                   based on Medicaid expenditures. We recognize that CMS’s State Drug
                                   Utilization Files may not contain complete drug reimbursement data,
                                   but we believe that they are sufficient for purposes of this analysis.

                                   In addition, we used data from the Medicaid Statistical Information
                                   System (MSIS) to identify drug reimbursement amounts for Medicaid
                                   beneficiaries who are not eligible for Medicare (non-dual eligibles).
                                   While total reimbursement amounts were available through June 2004,
                                   the most recent MSIS eligibility data to identify non-dual eligibles was
                                   from FY 2003 for 38 States with MSIS data. We used this data to
                                   calculate weighted averages based on reimbursement for the non-dual
                                   eligible population to determine whether the weighted averages would
                                   differ when limited to this beneficiary subpopulation compared to the
                                   entire Medicaid beneficiary population.
                                   Analysis
                                   For our population of Medicaid-reimbursed drugs, we calculated the
                                   following ratios by unit prices for all NDCs: (1) AMP to AWP, (2) AMP
                                   to WAC, and (3) WAC to AWP. For each set of price comparison ratios,
                                   we calculated the median, average, weighted average, range, and
                                   interquartile range. The weighted average “weights” each NDC
                                   according to Medicaid expenditures, i.e., the differences between prices
                                   for NDCs with higher Medicaid expenditures count more in the
                                   weighted average than NDCs with lower Medicaid expenditures. The
                                   interquartile range measures the difference between the 25th and
                                   75th percentile of the distribution, i.e., the middle 50 percent of the
                                   distribution. Appendix C provides the ranges and interquartile ranges.
                                   We made these comparisons for the overall population of Medicaid-



OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   7
    I N T R O D 
U C T                              I O N


                                   reimbursed drugs as well as for each drug category, i.e., single source
                                   brands, multisource brands, and generic drugs.

                                   We also conducted this analysis for a subset of drugs with the highest
                                   Medicaid expenditures. Specifically, we analyzed pricing data for the
                                   top 200 NDCs by Medicaid expenditures in 2004 for each of 3 categories.

                                   For State EAC formulas, we calculated the median, mode, and range of
                                   percent discounts for the 49 States that use AWP in their formula. We
                                   made calculations specific to brand name drugs and generic drugs
                                   because seven States have separate formulas for each. We also
                                   calculated the median, mode, and range of percent markups of WAC for
                                   the eight States that use WAC in their formulas. These States do not
                                   distinguish brand name versus generic drugs in their WAC-based
                                   formulas.

                                   This analysis focuses on the comparison of a sales-based price to the 

                                   published prices associated with the drug itself (i.e., the “ingredient 

                                   cost”). It does not address the professional costs associated with 

                                   dispensing the drug nor the dispensing fees paid by State Medicaid

                                   agencies in addition to their estimates of pharmacy acquisition cost. 

                                   Limitations
                                   We intend this inspection to provide information that is useful to those
                                   who are considering changing the basis of Medicaid reimbursement
                                   from a published price to a price based on actual sales. However, our
                                   analysis compares price points and not actual reimbursements. It is a
                                   theoretical analysis that is useful to estimate the impact of such a
                                   reimbursement change, but it does not measure the actual impact of
                                   such a change for three main reasons. First, States do not always
                                   reimburse at the amount that their EAC formulas would predict.24
                                   Second, our analysis does not capture the full complexity of Medicaid
                                   reimbursement, which can include tiered EAC formulas as well as other
                                   price points (i.e., usual and customary charge, FUL amounts, and State
                                   MAC amounts). Third, we are comparing published prices and State
                                   EAC formulas to AMP. However, if the basis of Medicaid
                                   reimbursement were changed to AMP, it would likely be AMP plus a
                                   markup percentage. For example, Medicare Part B moved to a sales-
                                   based price (i.e., ASP) and reimburses at ASP plus 6 percent.
                                   Standards
                                   This inspection was conducted in accordance with the “Quality 

                                   Standards for Inspections” issued by the President’s Council on 

                                   Integrity and Efficiency.


OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   8
    F   I N D I N G                  S
  Δ         F I N D I N G S 


      Average manufacturer price is substantially                        For Medicaid-reimbursed drugs,
     lower than both average wholesale price and                         AMP is substantially lower than
                       wholesale acquisition cost                        either of the published prices,
                                                                         namely, AWP and WAC. The AMP
                                   is also lower than State estimates of pharmacy acquisition costs, which
                                   incorporate AWP and WAC.
                                   At the median, AMP is equal to AWP minus 59 percent; in contrast, States’
                                   median estimated acquisition cost formula is AWP minus 12 percent.
                                   At the median of over 24,000 Medicaid-reimbursed NDCs, AMP is
                                   59 percent lower than AWP. To illustrate this 59 percent difference, for
                                   one NDC the AMP is $1.07 per pill, while the AWP is $2.61 per pill for
                                   the same drug. The median AWP-based State EAC formula is AWP
                                   minus 12 percent. This median State EAC formula would estimate
                                   pharmacy acquisition cost at $2.30 per pill for this same NDC.

                                   Forty-nine States estimate pharmacy acquisition cost using AWP minus
                                   a discount percentage. However, even with the discount percentage,
                                   AMP is still lower than these States’ estimates of pharmacy acquisition
                                   cost. The AWP minus 12 percent is the median and is also the most
                                   common EAC formula based on AWP.

                                   For 98 percent of Medicaid-reimbursed NDCs, the median State EAC
                                   formula based on AWP results in reimbursement amounts higher than
                                   AMP. In other words, AMP is less than AWP minus 12 percent for
                                   these NDCs. Conversely, for 2 percent of NDCs, the median State EAC
                                   formula would reimburse at a price below AMP.
                                   The relationship between AMP and AWP does not change when claims for dual
                                   eligibles are excluded. In 2006, the drug coverage for beneficiaries who
                                   are eligible for both Medicare and Medicaid (i.e., dual eligibles) will be
                                   transferred from Medicaid to Medicare Part D. Thus, we explored
                                   whether this shift would impact the relationship between AMP and
                                   AWP. We compared the average difference between AMP and AWP
                                   accounting for Medicaid reimbursement for all beneficiaries to the
                                   average difference accounting for reimbursement claims for non-dual
                                   eligibles only. Despite differences in drug utilization patterns between
                                   dual eligibles and non-dual eligibles, the relationship between AMP and
                                   AWP did not change when we excluded claims for dual eligibles.25
                                   At the median, AMP is equal to WAC minus 25 percent; in contrast, States’
                                   median WAC-based EAC formula is WAC plus 8.5 percent.
                                   At the median of over 19,000 NDCs, average manufacturer price is
                                   equal to WAC minus 25 percent.26 To illustrate this 25 percent

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   9
    F   I N D I N G 
S


                                   difference, for one NDC, the AMP is $1.59 per pill, while the WAC is
                                   $2.11 per pill. The median State EAC formula (WAC plus 8.5 percent)
                                   would estimate pharmacy acquisition cost at $2.29 per pill for this NDC.

                                   Eight States use WAC to estimate pharmacy acquisition cost.27 All of
                                   these States add a percentage markup to the WAC price, ranging from
                                   5 percent to 12 percent. WAC plus 8.5 percent is the median.

                                   For 96 percent of Medicaid-reimbursed NDCs, the median WAC-based
                                   State EAC formula results in reimbursement amounts higher than
                                   AMP. In other words, AMP is less than WAC plus 8.5 percent for these
                                   NDCs. Conversely, for 4 percent of NDCs, the median State EAC
                                   formula based on WAC would reimburse at a price below AMP.
                                   At the median, WAC is 22 percent lower than AWP. While AMP is
                                   considerably lower than both WAC and AWP, the comparisons make it
                                   clear that WAC is the lower of the two published prices. This is logical
                                   if WAC is meant to represent an earlier point in the distribution chain
                                   (prices paid by wholesalers) than AWP (prices paid by retailers). We
                                   compared WAC to AWP directly to determine how these published
                                   prices relate to one another. For over 99 percent of NDCs, WAC is lower
                                   than AWP. At the median, WAC is 22 percent lower than AWP.
                                   At the median, the AWP and WAC values in the pricing compendium for
                                   January 1, 2005, had not been updated in more than 2 years. At the
                                   median, AWP values were last updated 33 months ago, and WAC values
                                   were last updated 29 months ago according to First Databank’s
                                   National Drug Data File.28 Overall, NDCs with higher Medicaid
                                   expenditures were updated more recently. When weighted by Medicaid
                                   expenditures, the average timespan since the last AWP update is
                                   14 months; the unweighted average is 43 months.

                                   In comparison, AMP is calculated and reported to CMS each quarter
                                   and reflects sales that occurred 6 months prior. As of January 1, 2005,
                                   only 8 percent of NDCs had AWP values that were updated within the
                                   prior 6 months. However, these 8 percent of NDCs account for almost
                                   37 percent of expenditures because the published prices for higher
                                   expenditure NDCs tend to be updated more frequently than the
                                   published prices for lower expenditure NDCs. Ten percent of WAC
                                   values had been updated within the prior 6 months. Similarly, this
                                   10 percent of NDCs accounted for 37 percent of expenditures.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   10
    F   I N D I N G                  S 





        Generic drugs exhibit the largest differences                    When we analyzed the Medicaid-
        between average manufacturer price and the                       reimbursed NDCs by the three
                                    published prices                     drug categories (single source
                                                                         brands, multisource brands, and
                                   generics), we found dramatic differences across the categories. Generics
                                   demonstrated substantially larger differences between AMP and the
                                   published prices (AWP and WAC) than either of the brand name drug
                                   categories. Generic drugs comprise 76 percent of the Medicaid-
                                   reimbursed NDCs.
                                   For generic drugs, AMP is 70 percent lower than AWP at the median.
                                   For generic drugs, AMP is 70 percent lower than AWP at the median.
                                   In comparison, AMP is 23 percent lower than AWP at the median for
                                   single source brands and 28 percent lower than AWP for multisource
                                   brands. Table 1 presents the comparisons of AMP to AWP overall and
                                   for each drug category. The values indicate the percentage by which
                                   AMP is lower than AWP.


                                       Table 1. AMP to AWP Comparisons by Drug Category: AMP = AWP – X%

                                                                                                                                                    Weighted
                                                                                                              Median                      Average   Average*
                                      Single Source Brands
                                                                                                                23%                         25%       24%
                                      3,527 NDCs

                                      Multisource Brands
                                                                                                                28%                         40%       36%
                                      2,356 NDCs

                                      Generics
                                                                                                                70%                         65%       74%
                                      18,218 NDCs
                                   Source: Office of Inspector General, Analysis of Medicaid drug pricing data, 2005.

                                   *Weighted by Medicaid expenditures.




                                   The weighted average indicates that, for generic drugs, the disparity
                                   between AMP and AWP is greater for drugs with higher Medicaid
                                   expenditures than for drugs with lower Medicaid expenditures. The
                                   weighted average is weighted by Medicaid expenditures (i.e., NDCs with
                                   higher Medicaid expenditures count more than those with lower
                                   expenditures) and thereby links the price differences with Medicaid
                                   reimbursement. Price and utilization are two important factors that
                                   may contribute to this pattern for generics. On the one hand, as the
                                   AWP of a drug increases the reimbursement price based on AWP also

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES      11
  F   I N D I N G                S


                                   increases, which could drive expenditures higher. On the other hand,
                                   high utilization of a drug can lead to both high expenditures on that
                                   drug and increased incentives to inflate AWP for that drug.

                                   Notably, brand name drugs do not exhibit this same pattern. For
                                   brands, the weighted averages are slightly lower than the unweighted
                                   averages. This indicates that overall the disparities between AMP and
                                   AWP are not larger for brand name drugs with higher expenditures
                                   compared to brand name drugs with lower expenditures.

                                   This is especially true for the top 200 generic drugs by Medicaid
                                   expenditures. In this subset, AMP is 78 percent lower than AWP at the
                                   median. In comparison, AMP is 23 percent less than AWP for the top
                                   200 single source brands, and 28 percent less than AWP for the top
                                   200 multisource brands. Table 2 displays these comparisons. The
                                   values indicate the percentage by which AMP is lower than AWP.


                                                             Table 2. AMP to AWP Comparisons for Top 200 NDCs
                                                             by Medicaid Expenditures: AMP = AWP – X%

                                                                                                                                                    Median

                                                            Top 200 NDCs: Single Source Brands                                                       23%

                                                            Top 200 NDCs: Multisource Brands                                                         28%

                                                            Top 200 NDCs: Generics                                                                   78%

                                                         Source: Office of Inspector General, Analysis of Medicaid drug pricing data, 2005.




                                   State estimates of pharmacy acquistion cost exceed AMP even among States
                                   with additional discounts for generics. Of the 49 States that use EAC
                                   formulas based on AWP, 7 States specify a greater discount off of AWP
                                   for generic drugs than for brand name drugs. Among these seven
                                   States, the EAC formulas for generic drugs range from AWP minus
                                   20 percent to AWP minus 50 percent. Even with these greater
                                   discounts, the median AMP (equal to AWP minus 70 percent) remains
                                   lower than States’ estimated acqusition costs for generic drugs. Table 3
                                   (on the next page) provides a summary of State EAC formulas for all
                                   49 States that use AWP as well as the separate generic EAC formulas
                                   specified by 7 of these States.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES            12
    F   I N D I N G                  S           





                                    Table 3. State Estimated Acquisition Cost Formulas Based on AWP

                                   State EAC Formula                                     Median                             Mode                     Range

                                   All States’ formulas
                                                                                     AWP - 12%                       AWP - 12%              AWP - 5% to AWP - 50%
                                   (49 States)

                                   Generic-specific formulas
                                                                                     AWP - 27%                       AWP - 20%              AWP – 20% to AWP - 50%
                                   (7 States)

                                Source: Office of Inspector General, Analysis of State estimated acquisition cost formulas, 2005.




                                   For generic drugs, AMP is 40 percent lower than WAC at the median.
                                   The differences between AMP and WAC are also much greater for
                                   generic drugs than either of the two brand name drug categories. For
                                   generics, AMP is equal to WAC minus 40 percent at the median. In
                                   comparison, AMP equals WAC minus 4 percent at the median for single
                                   source brands and WAC minus 8 percent for multisource brands.
                                   Table 4 presents the comparisons of AMP to WAC overall and for each
                                   drug category. The values indicate the percentage by which AMP is
                                   lower than WAC.


                                      Table 4. AMP to WAC Comparisons by Drug Category: AMP = WAC – X%

                                                                                                                                                         Weighted
                                                                                                            Median                      Average          Average*
                                     Single Source Brands
                                                                                                                4%                         7%                6%
                                     3,502 NDCs

                                     Multisource Brands
                                                                                                                8%                        19%                20%
                                     2,116 NDCs

                                     Generics
                                                                                                               40%                        39%                59%
                                     13,857 NDCs
                                  Source: Office of Inspector General, Analysis of Medicaid drug pricing data, 2005.

                                  * Weighted by Medicaid expenditures.




                                   Again, generic drugs with higher Medicaid expenditures demonstrate
                                   larger differences between AMP and WAC than generics with lower
                                   expenditures. The weighted average difference between AMP and WAC
                                   is greater than the unweighted average (59 percent compared to
                                   39 percent) for generics. In contrast, for brand name drugs the



OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES                  13
    F   I N D I N G                  S


                                   disparity between AMP and AWP is not larger for the drugs with higher
                                   expenditures compared to the drugs with lower expenditures.

                                   The top 200 generic drugs by Medicaid expenditures illustrate this
                                   point, as this subset shows a greater disparity between AMP and WAC
                                   than the full population of Medicaid-reimbursed generic NDCs. For the
                                   top 200 generics, AMP is equal to WAC minus 59 percent at the median,
                                   compared to WAC minus 40 percent at the median for all Medicaid-
                                   reimbursed generics.
                                   AMP is much lower than WAC-based State EAC formulas for generic drugs
                                   compared to brand name drugs. Eight States use WAC to estimate
                                   pharmacy acquisition cost. None specify a lower WAC-based formula
                                   for generic drugs compared to brand name drugs. These State EAC
                                   formulas all include a percentage markup of WAC, ranging from WAC
                                   plus 5 percent to WAC plus 12 percent. Table 5 summarizes these
                                   formulas.


                                       Table 5. State Estimated Acquisition Cost Formulas Based on WAC

                                      State EAC formula                                 Median                          Mode                        Range


                                      All Drugs (8 States)                          WAC + 8.5%                     WAC + 5%              WAC + 5% to WAC + 12%

                                   Source: Office of Inspector General, Analysis of State estimated acquisition cost formulas, 2005.




                                   The median AMP is lower than these EAC formulas for all three drug
                                   categories. However, this difference is greatest among the generic
                                   drugs. For generics, AMP is equal to WAC minus 40 percent at the
                                   median, while State estimated acquisition costs equal WAC plus a
                                   markup of 5 to 12 percent.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES            14
  Δ         C O N C L U S I O N                                                    




                                   The Administration and Congress have expressed interest in changing
                                   Medicaid drug reimbursement to align more closely with pharmacy
                                   acquisition cost by using prices based on actual sales rather than the
                                   published prices currently used. OIG has conducted numerous reviews
                                   of Medicaid drug reimbursement and has found that Medicaid drug
                                   reimbursements exceed pharmacies’ actual acquisition costs and exceed
                                   prices paid by other Federal programs. OIG has recommended that
                                   Medicaid should base reimbursement on pricing data that more
                                   accurately reflects actual acquisition costs.
                                   This inspection provides additional evidence that published prices are
                                   higher than prices based on actual sales transactions. We found that
                                   AMP, which is calculated based on statute and actual sales
                                   transactions, is substantially lower than either of the published prices
                                   (i.e., AWP and WAC). As a result, States’ estimates of pharmacy
                                   acquisition costs, which are based on AWP and/or WAC, are also
                                   substantially higher than AMP. The differences between AMP and the
                                   published prices were especially large for generic drugs.

                                   Our companion report, “Medicaid Drug Price Comparison: Average
                                   Sales Price to Average Wholesale Price” (OEI-03-05-00200), found
                                   similar results when comparing ASP, the statutorily defined price used
                                   for Medicare reimbursement, to AWP. That analysis demonstrated that
                                   ASP is substantially lower than AWP for the drugs covered by both
                                   Medicaid and Medicare Part B.

                                   We intend this inspection to provide useful information to those
                                   considering the implications of changing Medicaid’s drug
                                   reimbursement methodology. The substantial disparities between
                                   prices based on actual sales (AMP and ASP) and the published prices
                                   currently being used indicate that changing the basis of Medicaid
                                   reimbursement could have a significant impact on Medicaid
                                   expenditures.
                                   Agency Comments
                                   CMS commented that these companion reports make clear that current
                                   Medicaid payment rules result in overpayments for drugs and
                                   emphasize the need for reform. Similar problems with overpayments
                                   for Medicare drugs led to passage of the MMA provisions that changed
                                   the basis of reimbursement for drugs from AWP to ASP. CMS
                                   reiterated that the President’s 2006 budget proposes to solve this
                                   problem by the use of ASP so Medicaid drug prices will reflect actual

OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   15
    C O     N C L         U S I O                    N


                                   costs. CMS stated that Congress should enact legislation to ensure that
                                   Medicaid payment for drugs is related to actual prices paid by
                                   pharmacies. The full text of CMS’s comments is provided in
                                   Appendix D.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   16
  Δ         E N D                N O T E S                                 





                                   1   Testimony of Dennis Smith, Director of the Center for Medicaid and
                                       State Operations, Centers for Medicare & Medicaid Services, on
                                       Medicaid Prescription Drug Reimbursement before the House Energy
                                       and Commerce Subcommittee on Oversight and Investigations,
                                       December 7, 2004.

                                   2   Centers for Medicare & Medicaid Services. “2003 CMS Statistics.”
                                       Available online at www.cms.hhs.gov/researchers/pubs/03cmsstats.pdf.

                                   3   Centers for Medicare & Medicaid Services. “A Strategy for
                                       Transitioning Dual Eligibles from Medicaid to Medicare Drug
                                       Coverage.” May 2, 2005. Available online at
                                       http://www.cms.hhs.gov/medicarereform/strategyforduals.pdf.

                                   4   Ibid.

                                   5   United States House of Representatives Committee on the Budget.
                                       “Analysis of the President’s Budget for FY 2006.” Available online at
                                       http://www.house.gov/budget/analysisprez021105.pdf.

                                   6   Testimony transcript available online at
                                       http://www.oig.hhs.gov/testimony/docs/2004/reeb120704.pdf.

                                   7   Federal Register Notice. Medicaid Program; Establishment of the
                                       Medicaid Commission and Request for Nominations for Members.
                                       CMS-2214-N.

                                   8   Available online at www.ncsl.org and www.nga.org.

                                   9   Office of Inspector General reports: “Variations in State Medicaid Drug
                                       Prices,” OEI-05-02-00681, issued September 2004; “Medicaid
                                       Pharmacy—Additional Analyses of the Actual Acquisition Cost of
                                       Prescription Drug Products,” A-06-02-00041, issued September 2002;
                                       “Cost Containment of Medicaid HIV/AIDS Drug Expenditures,”
                                       OEI-05-99-00611, issued July 2001.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   17
                                   10   Centers for Medicare & Medicaid Services State Medicaid Manual,
                                        Part 6. Available online at
                                        http://63.241.27.79/manuals/45_smm/sm_06_6000_to_6400.3.asp.

                                   11   Centers for Medicare & Medicaid Services State Medicaid Manual,
                                        Part 6. Available online at
                                        http://63.241.27.79/manuals/45_smm/sm_06_6000_to_6400.3.asp.

                                   12    42 CFR § 447.332.

                                   13   Centers for Medicare & Medicaid Services. “Medicaid Prescription
                                        Reimbursement by State, Quarter Ending March 2005.” Available at:
                                        http://www.cms.hhs.gov/medicaid/drugs/pre0305.pdf.

                                   14   Centers for Medicare & Medicaid Services State Medicaid Manual,
                                        Part 6.

                                   15   Centers for Medicare & Medicaid Services. “Medicaid Prescription
                                        Reimbursement by State, Quarter Ending March 2005.”

                                   16   Three other drug price compendia are Multim, Gold Standard, and Red
                                        Book.

                                   17   Public Law 108-173, Section 303(c)6(B).

                                   18   Budget of the United State Government, Fiscal Year 2006. Available
                                        online at http://www.whitehouse.gov/omb/budget/fy2006.

                                   19   42 U.S.C. § 1396r-8(k)(1).

                                   20   Ibid.

                                   21   Government Accountability Office. “Medicaid Drug Rebate Program:
                                        Inadequate Oversight Raises Concerns about Rebates Paid to States.”
                                        GAO-05-102. February, 2005.

                                   22   42 CFR § 414.804(a).

                                   23   Office of Inspector General. “Variation in State Medicaid Drug Prices.”
                                        OEI-05-02-00681. September 2004.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   18
                                   24   Ibid.

                                   25   We compared the weighted average price differences based on all
                                        claims to weighted averages based on claims for non-dual eligibles only
                                        and found no difference. Weighting by expenditures on non-dual
                                        eligibles only, AMP is 33 percent lower than AWP on average.
                                        Likewise, weighting by expenditures on the full Medicaid population,
                                        AMP is 33 percent lower than AWP on average.

                                   26   Only 19,475 of the 24,101 NDCs included in the AMP to AWP analysis
                                        had WAC values listed in the pricing compendium.

                                   27   Six of these States use WAC in combination with AWP, e.g., “the lesser
                                        of AWP minus 12 percent or WAC plus 8 percent.”

                                   28   We rounded to the nearest full month increment. List prices can be
                                        updated at any time including multiple times within a month.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   19
    Δ         A P P E N D I X                                           ~           A            



                                   KEY TERMS AND ACRONYMS, DRUG DISTRIBUTION CHART 





                                                             Box 1: KEY TERMS AND ACRONYMS

           Average manufacturer price (AMP): The average unit price paid to manufacturers by
           wholesalers for drugs distributed to the retail class of trade minus customary promt pay
           discounts. The AMP is statutorily defined and calculated from actual sales transactions.
           Manufacturers must report AMP to CMS quarterly for the Medicaid drug rebate program.

           Average wholesale price (AWP): A price published in national drug pricing compendia
           issued by private companies such as First Databank and Medi-Span, based on pricing
           information provided by manufacturers. Its calculation is not defined in statute or
           regulation. It is generally considered a price for retailers.

           Estimated acquisition cost (EAC): The State Medicaid agency’s “best estimate” of the price
           generally and currently paid by providers for the drug. Within Federal parameters, each
           State establishes its own EAC formula in its State plan.

           Multisource brand drugs: Innovator multisource drugs. Brand name drugs that have
           generic equivalents.

           National drug code (NDC): The 11-digit code that Medicaid uses to identify unique
           formulations of each drug, including the manufacturer, strength, and package size.

           Generic drugs: Non-innovator multisource drugs.

           Single source brand drugs: Single source drugs. Brand name drugs that have no generic
           equivalents.

           Wholesale acquisition cost (WAC): A price published in national drug pricing compendia
           issued by private companies such as First Databank and Medi-Span. It is now statutorily
           defined as the manufacturer’s list price for the drug to wholesalers or direct purchasers in
           the United States, not including prompt pay or other discounts, rebates or reductions in
           price, as reported in wholesale price guides or other publications of drug pricing data.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   20
       A   P      P E N D              I X ~              A           





                                     The following chart is a simplified depiction of a typical Medicaid drug
                                     distribution chain meant to illustrate the relationships among the various
                                     drugs prices. It is not meant to capture the full complexity of the drug
                                     distribution chain.
                                     Chart 1. Medicaid Drug Distribution Chain Example




                                   Manufacturers
                         •

                                                         •       Sales-based Price: AMP

                                                         •       Published Price: WAC



                                     Wholesalers



                                                         •       Pharmacy’s Actual Acquisition Cost

                                                         •       Published Price: AWP


                              Retail Pharmacies




                                                         •       Reimbursement: EAC (plus dispensing fee)



                             Medicaid Agencies




OEI-05-05-00240     M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   21
  Δ         A P P E N D I X                                         ~           B            




                                   ADDITIONAL DATA POPULATIONS: MEDICAID-COVERED
                                   DRUGS

                                   In addition to Medicaid-reimbursed drugs, we analyzed the price
                                   comparisons for the population of Medicaid-covered drugs, including
                                   those with no reimbursement from January 1 through June 30, 2004.
                                   The population of Medicaid-covered drugs includes 28,557 NDCs, while
                                   Medicaid-reimbursed drugs includes 24,101 NDCs.

                                   We found similar patterns of price differences between AMP and the
                                   published prices for Medicaid-covered drugs as compared to Medicaid-
                                   reimbursed drugs. For Medicaid-covered drugs, AMP is 57 percent
                                   lower than AWP at the median, compared to 59 percent for Medicaid-
                                   reimbursed drugs. The AMP is 24 percent lower than WAC for
                                   Medicaid-covered drugs and 25 percent lower than WAC for
                                   Medicaid-reimbursed drugs. Table 6 displays these results.


                                       Table 6. Medicaid-covered drugs vs. Medicaid-reimbursed drugs

                                                                                                            AMP = AWP – X%                          AMP = WAC – X%
                                                                                                                Median                                  Median

                                      Medicaid-covered Drugs                                                           57%                               24%

                                      Medicaid-reimbursed Drugs                                                        59%                               25%

                                   Source: Office of Inspector General, Analysis of Medicaid drug pricing data, 2005.




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES               22
  Δ         A P P E N D I X                                         ~           C            



                                   ADDITIONAL MEASURES: RANGES AND INTERQUARTILE
                                   RANGES
                                   In addition to the median, average, and weighted average, we calculated
                                   the range and interquartile range for each price comparison. While the
                                   range measures the difference between the two ends of a distribution,
                                   the interquartile range measures the difference between the 25th and
                                   75th percentile of the distribution, i.e., the middle 50 percent of the
                                   distribution. Table 7 displays these measures for the AMP to AWP
                                   comparsions, and Table 8 displays results of comparing AMP to WAC.


                                       Table 7. AMP to AWP Comparisons: AMP = AWP – X%


                                                                                                                        Range*                  Interquartile Range
                                      All Medicaid-reimbursed Drugs
                                                                                                                     0% to 98%                      28% to 83%
                                      24,101 NDCs

                                      Single Source Brands
                                                                                                                     0% to 65%                      22% to 27%
                                      3,527 NDCs

                                      Multisource Brands
                                                                                                                     0% to 96%                      22% to 56%
                                      2,356 NDCs

                                       Generics
                                                                                                                     0% to 98%                      47% to 87%
                                      18,218 NDCs
                                   Source: Office of Inspector General, Analysis of Medicaid drug pricing data, 2005.

                                   * We excluded 3 percent of NDCs at the high and low ends of the distribution. See methodology for details.




                                       Table 8. AMP to WAC Comparisons: AMP = WAC – X%


                                                                                                                        Range*                  Interquartile Range
                                      All Medicaid-reimbursed Drugs
                                                                                                                  (-869%) to 98%                    4% to 57%
                                      19,475 NDCs

                                      Single Source Brands
                                                                                                                   (-28%) to 57%                     2% to 9%
                                      3,502 NDCs

                                      Multisource Brands
                                                                                                                   (-86%) to 95%                    2% to 29%
                                      2,116 NDCs

                                      Generics
                                                                                                                  (-869%) to 98%                    14% to 64%
                                      13,857 NDCs
                                   Source: Office of Inspector General, Analysis of Medicaid drug pricing data, 2005.

                                   * A negative difference indicates an AMP value greater than WAC. This occurred for 9 percent of NDCs.



OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES                 23
  Δ         A P P E N D I X                                         ~           D            



                                   AGENCY COMMENTS 





OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   24 

    A   P   P E N D              I X ~              D           





OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   25
  A A P P P P E E N N DD I I XX ~~ DA 





OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   26
  Δ         A C K N O W L E D G M E N T S                                                                                    




                                   This report was prepared under the direction of William C. Moran,
                                   Regional Inspector General for Evaluation and Inspections in the
                                   Chicago regional office, and Ann Maxwell, Assistant Regional Inspector
                                   General. Other principal Office of Evaluation and Inspections staff who
                                   contributed include:

                                   Erin Lemire, Project Leader
                                   Tom Komaniecki, Senior Program Analyst

                                   Louise Schoggen, Intern

                                   Linda Boone Abbott, Program Specialist

                                   Tricia Davis, Director, Medicare and Medicaid Branch

                                   Technical Assistance

                                   Scott Horning, Program Analyst




OEI-05-05-00240   M E D I C A I D D R U G P R I C E C O M PA R I S O N S : AV E R A G E M A N U F A C T U R E R P R I C E   TO   PUBLISHED PRICES   27
